No, 19-1252

In the Supreme Court of the Anited States

CALLAN CAMPBELL, KEVIN C. CHADWICK (INDIVIDUALLY AND THROUGH HIS COURT-
APPOINTED ADMINISTRATORS, JAMES H. CHADWICK), JUDITH STRODE CHADWICK, THE
TYLER JUNSO ESTATE (THROUGH KEVIN JUNSO, ITS PERSONAL REPRESENTATIVE), NIKI

JUNSO, AND KEVIN JUNSO, ALL ON THEIR OWN BEHALF AND ON BEHALF OF A CLASS OF
ALL OTHERS SIMILARLY SITUATED,
Petitioners,

Vv.

UNITED STATES
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Federal Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the CORRECTED AMICUS
BRIEF OF CENTER FOR AUTO SAFETY in the above-captioned case complies with
the typeface requirement of Supreme Court Rule 33.1(b), being prepared in Century
Schoolbook 12 point for the text, and 10 point for the footnotes, and this brief contains
8769 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 8, 2020.

bihhn ity
WILLIAM T. DEVINNE

BAKERHOSTETLER LLP

1050 Connecticut Ave., NW
Washington, DC 20036

(202) 861-1554
wdevinney@bakerlaw.com

Counsel of Record for Amicus Curiae
